U.S. DEPARTMENT OF COMMERCE

          Office of Inspector General





                National Oceanic and
          Atmospheric Administration

           FY 2008 FISMA Assessment of
                National Weather Service
            Telecommunication Gateway
                           (NOAA8871)


  Final Inspection Report No. OSE-19000/September 2008




                             Office of Systems Evaluation
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington, D.C. 20230



                                                                   SEP 2 2 2008
MEMORANDUM FOR:	 Vice Admiral Conrad C. Lautenbacher, Jr., USN (Ret.)
                 Under Secretary of Commerce for Oceans and Atmosphere
                 and NOAA Administrator

                             Mary M. Glackin
                             Deputy Under Secretary of Commerce for Oceans and
                             Atmosphere

                             ~~.~
FROM:                        Judith J. Gordon
                             Assistant Inspector General for Audit and Evaluation

SUBJECT:                     National Weather Service
                             FY 2008 FISMA Assessment ofNWS Telecommunication
                             Gateway (NOAA8871)
                             Final Inspection Report No. OSE-19000


This report presents the results of our Federal Information Securi~ Management Act
(FISMA) review of the certification and accreditation ofthe NWS Telecommunication
Gateway system. We found that the system security plan did not provide an adequate
basis to conduct the security certification and NWS needs to improve its security control
assessments to assure that controls are implemented correctly and operating as intended.

In response to our draft report, NOAA, with one exception, agreed with our findings and
described corrective actions that are fully responsive to all our recommendations.
NOAA's response is summarized in the appropriate sections ofthe report and included in
it entirety as appendix B.

We request that you provide us an action plan describing the actions you have taken or
plan to take in response to our recommendations within 60 calendar days of the date of
this report. The plan should be in the form of plans of action and milestones (POA&Ms)
as required by FISMA.

We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you would like to discuss any of the issues raised in this report, please call
me at (202) 482-2754 or Allen Crawley, Deputy Assistant Inspector General for Systems
Evaluation at (202) 482-1855.
Attachment

cc:	   Suzanne Hilding, ChiefInformation Officer, U.S. Department of Commerce
       Joe Klimavicz, ChiefInformation Officer, National Oceanic and Atmospheric
          Administration
       Dr. Jack L. Hayes, Assistant Administrator for Weather Services, National Weather
           Service
       Adrian R. Gardner, Chief Information Officer, National Weather Service
                                     OIG FY 2008 FISMA Assessment


    Listing of Abbreviated Terms & Acronyms
    C&A 
                                             Certification and Accreditation
    DISA 
                                            Defense Information Systems Agency
    FIPS 
                                            Federal Information Processing Standards
    FISMA 
                                           Federal Information Security Management
                                                      Act of 2002


    IP 
                                              Internet Protocol
    ISSO 
                                            Information System Security Officer
    IT 
                                              Information Technology
    NIST 
                                            National Institute of Standards and
                                                      Technology
    NOAA                                              National Oceanic and Atmospheric
                                                      Administration
    NWS 
                                             National Weather Service
    NWSTG 
                                           National Weather Service
                                                      Telecommunication Gateway
    OIG 
                                             Office of Inspector General
    OMB 
                                             Office of Management and Budget
    POA&M 
                                           Plan of Action and Milestones
    RPC 
                                             Remote Procedure Call
    SAR 
                                             Security Assessment Report
    SSP 
                                             System Security Plan
    ST&E 
                                            Security Testing and Evaluation
    TOC 
                                             Telecommunication Operations Center


•                                                                                                       •
    Synopsis of Findings

      •	     Security controls were not adequately defined prior to the certification phase or in the
             approved system security plan.

      •	     Secure configuration settings were not defined for some IT products and none were
             assessed.

      •	     Certification assessments were incomplete and flawed.

      •	     OIG assessment of selected security controls found significant weaknesses not
             identified by the NWS security certification.

    Conclusion
      •	     NWS needs to improve security control assessments to assure that controls are
             implemented correctly, operating as intended, and meeting the security requirements
             for the system.




                                                 Page 2
                                  OIG FY 2008 FISMA Assessment

Summary of NOAA Response

In its response to our draft report, NOAA, with one exception, agreed with our findings. NOAA
noted that, although the SSP was not signed when certification testing began, it had been
favorably reviewed by NWS’ information technology security officer and the system’s authorizing
official.

Also, NOAA concurred with all our recommendations and identified actions it will take to address
them. These actions include the remediation of specific vulnerabilities, reassessments of security
control implementations, updates to security requirements, and changes to hiring processes,
security training, and C&A contract requirements.

NOAA’s written response is included in its entirety as appendix B of this report.


OIG Comments

NOAA’s response took exception with the first finding that stated the security certification began
before the SSP was formally reviewed and approved. Although NOAA asserts that the
authorizing official and NWS’ senior IT security officer had reviewed the SSP before beginning
security certification, the SSP was not approved until after the accreditation decision. Department
policy and NIST Special Publication 800-37, Guide for the Security Certification and Accreditation
of Federal Information Systems, require approval of the SSP by the authorizing official and senior
agency information security officer to ensure the set of security controls specified in the SSP
meet the security requirements for the information system before advancing to the security
certification phase.

The corrective actions described by NOAA are responsive to our recommendations.




                                              Page 3
                               OIG FY 2008 FISMA Assessment



Introduction
 The National Weather Service Telecommunication Gateway (NWSTG) supports the
 National Weather Service’s (NWS’) mission to collect, process, and disseminate national
 and international meteorological data and products in real time. Other governmental
 agencies, the private sector, the general public, and the global community also use the
 system’s data.

 NWS has categorized NWSTG                          system, which means that a security
 breach could be expected to have                                    effect on organizational
 operations, organizational assets, or individuals.

 The system interconnects with numerous other systems worldwide via various protocols.
 Network components (primarily         firewalls, routers, and switches) regulate the flow of
 internal and external communications. The system comprises                         , and
 Windows servers that gather, process, and disseminate meteorological information and
 manage the system infrastructure. Workstations are used for interacting with and monitoring
 the system. Key applications in the system include databases and Web servers.




                                           Page 4
                                OIG FY 2008 FISMA Assessment

Findings and Recommendations

 1. Security Controls Were Not Adequately Defined Prior to the
    Certification Phase or in the Approved System Security Plan

  •	   NWS began the security certification before the security controls were adequately
       defined and the SSP was formally reviewed and approved, resulting in an ineffective
       C&A process.
         o	 According to the SAR, certification assessments began around March 2, 2007 but
             the SSP was not approved until the system was accredited on March 22, 2007.

  •	   The SSP did not adequately define the control enhancements required for
              system or the organization-defined security control parameters. It also
       mistakenly identified controls as NOAA common controls. (The following totals do not
       include organization-defined parameters and security control enhancements identified
       as planned or controls accurately identified as NOAA common controls.)
         o	 The SSP did not define 24 of        security control enhancements required for a
                  impact system.
                  AC-17        – Remote Access
                  AU-2                – Auditable Events
                  CM-2        – Baseline Configuration
                  CM-3        – Configuration Change Control
                  CP-2        – Contingency Plan
                  CP-3        – Contingency Training
                  CP-4 (          – Contingency Plan Testing
                  CP-6 (          – Alternate Storage Sites
                  CP-7                   – Alternate Processing Sites
                  CP-8                – Telecommunications Services
                  CP-9            – Information System Backup
                  MA-2        – Controlled Maintenance
                  MA-4            – Remote Maintenance

         o	 Eight of     organization-defined security control parameters for tailoring the
            control baseline were not defined.
                 AU-5 – Percentage of maximum audit record storage capacity permitted
                     before information system takes appropriate actions
                 AU-6 – List of inappropriate or unusual activities that result in alerts
                 CM-7 – List of prohibited and/or restricted functions, ports, protocols,
                     and/or services
                 CP-7 – Time period by which critical mission functions at the alternate
                     site must be resumed
                 CP-8 – Time period by which telecommunications services must be
                     resumed
                 CP-9 – Frequency of testing for backup media to verify reliability and
                     integrity
                 PE-8 – Frequency of visitor access records review by designated
                     organization officials
                 RA-5 – Frequency of updates of list of scanned information security
                     vulnerabilities




                                            Page 5
                               OIG FY 2008 FISMA Assessment


        o   Ten of 19 physical and environmental controls were incorrectly identified as
            NOAA common controls.
                PE-8 – Access Records
                PE-9 – Power Equipment and Power Cabling
                PE-10 – Emergency Shutoff
                PE-11 – Emergency Power
                PE-12 – Emergency Lighting
                PE-13 – Fire Protection
                PE-14 – Temperature and Humidity Controls
                PE-15 – Water Damage Protection
                PE-16 – Delivery and Removal
                PE-18 – Location of Information System Components

  •	   Impacts of inadequately defined security controls include:
         o	 Controls may not have been completely or accurately implemented by the system
            owner.
         o	 Certification team lacked information to effectively assess the control.
         o	 Assessments of physical and environmental controls were incomplete.



Recommendation

1.1 NOAA should ensure that the authorizing official and senior information security officer
    review and approve the system security plan prior to certification. The system information
    should be accurate and proposed security controls should meet the system’s security
    requirements. Approval should confirm that the SSP
        •	 correctly identifies security controls not directly supervised by the system owner,
        •	 adequately describes all applicable required control enhancements, and
        •	 specifies all security control parameters required to be defined by the
            organization.




                                            Page 6
                                  OIG FY 2008 FISMA Assessment



2. Secure Configuration Settings Were Not Defined for Some IT Products
    and None Were Assessed
       Background: The Department’s IT security policy and NIST SP 800-53 require
       establishing and assessing secure configuration settings for IT products. Products
       include operating systems for system components (such as servers, desktops, laptops,
       routers, and switches) and applications (such as e-mail, Web, VPN, firewall, intrusion
       detection, database, and antivirus). FISMA and OMB guidance also highlight the
       importance of secure configuration settings. Implementing and maintaining secure
       configuration settings is one of the most effective ways of negating threats. Failing to
       completely assess this critical control leaves the security of a system in serious doubt
       and undermines the adequacy of the certification.

   •     Secure configuration settings were defined only for Windows,                     IT
         products.
           o Settings were not defined for the following:
                            routers, switches, and firewalls
                              Web server
                                    server

   •     No secure configuration settings were assessed.
          o The package contained no evidence that secure configuration settings had been
              evaluated for any IT product.
                   The certification team inappropriately assessed the control by relying on
                      a statement from the system security officer who stated, “Configuration
                      settings have been set to the most restrictive modes and enforced on all
                      components in the NWSTG.”
          o During our field work, NWS claimed secure configuration settings had been
              assessed both with an automated scanning tool and manually. However, we
              found
                   The scanning tool used could not have assessed the control since it was
                      not configured to evaluate NWS’ secure configuration baselines.
                   The certification team could not provide any evidence of manual
                      assessments.

Recommendations

NOAA should ensure that

 2.1 secure configuration settings are defined and implemented for all IT products in the
     system accreditation boundary in accordance with NIST SP 800-70, Security
     Configuration Checklists Program for IT Products; and

 2.2 a sample of identically configured components running each operating system variant is
     assessed for compliance with organizationally defined operating system baselines and
     appropriate samples of other IT products.




                                               Page 7
                               OIG FY 2008 FISMA Assessment



3. Certification Assessments Were Incomplete and Flawed
  •	   C&A package lacks evidence that security controls were assessed on all applicable
       system components and applications where the controls are implemented.
           o	 Network devices including           routers, firewalls, switches, and
                                        switches and applications including
                                                    were not assessed.
           o	 Not all applicable operating systems were assessed for some security
              controls. (See table 1 for examples.)
                  	 The majority of the artifacts referred to in the procedural step
                       assessment results are for        . Minimal artifacts exist to support
                       control assessments on Windows and
                  	 OIG determinations were based on reviewing the procedural step
                       assessment results and artifacts. Because some results and artifacts
                       were insufficient to determine if the control was assessed on all
                       applicable system components, we considered any other associated
                       results and artifacts not directly related to the procedural step.

  •	   Certification assessment results erroneously indicated that some procedural steps for
       control assessments were related to NOAA common controls. As a result, the
       following assessments were not performed during certification:
            o	 Individual procedural steps:
                     AC-4.2 – Information Flow Enforcement – Information flow within the
                        system and between systems
                     SI-2.7 – Flaw Remediation – Test effectiveness of flaw remediation
                        capabilities
                    	 SA-7.3 – User Installed Software – Examine firewall logs for
                        indications of prohibited software
            o	 All the procedural steps for the following controls: 

                     AT-3 – Security Training 

                     PE-3 – Physical Access Control 

                     PE-4 – Access Control for Transmission Medium 

                     PE-5 – Access Control for Display Medium 

                     PE-6 – Monitoring Physical Access 

                     PE-7 – Visitor Control 

                     PE-17 – Alternate Work Site 


  •	   Four security controls that should have been assessed on system components
       inappropriately relied on interviews and document review. (See table 2.)

  •	   Some security control assessments did not follow procedures and contained results
       inconsistent with evidence. (See table 3 for examples.)

  •	   Some certification assessment results did not describe vulnerabilities discovered.
       (See table 4 for examples.)
          o	 Assessment results indicated only “POA&M” with no further explanation.
          o	 If vulnerabilities are not identified and described, officials cannot be certain of
                    the specific deficiencies within the control,
                    the amount of risk that should be attributed to the system from the
                        failed control assessment, and 

                    how to mitigate the vulnerabilities. 





                                            Page 8
                               OIG FY 2008 FISMA Assessment


Recommendations

NOAA should ensure that

3.1 security controls are assessed on all applicable system components, such as routers,
    switches, firewalls, applications, and servers;

3.2 control assessments follow applicable procedures; and

3.3 assessment results clearly describe vulnerabilities discovered.




                                           Page 9
                                  OIG FY 2008 FISMA Assessment



4. OIG Assessment of Selected Security Controls Found Significant
Weaknesses Not Identified by the NWS Security Certification
As part of the OIG’s FY08 FISMA evaluation of NWSTG, we assessed a targeted set of system
components to determine if selected security controls are properly implemented and whether
related system vulnerabilities were identified by NWS’ security certification. We tailored our
procedures to the specific control implementations of NWSTG. This tailoring is a necessary part
of assessing controls adequately and is a crucial component of NIST guidance. The results
follow from the steps we took to assess the control, include (or reference) our analysis, and cite
specific supporting evidence. (See appendix C.)

    •   NWS stated that there has been little or no change in security control configurations
        since certification assessments were performed. Therefore, vulnerabilities identified
        during OIG assessments most likely existed at the time of security certification.
    •   OIG assessments identified significant vulnerabilities that were not identified by NWSTG
        certification assessments. Thus, the authorizing official was not informed of these
        vulnerabilities. (See table 5 for a comparison of certification assessment results against
        OIG assessment results.) These vulnerabilities include the following:
             o




Recommendations

NOAA should ensure that

4.1 the deficiencies we identified are added promptly to the system’s plan of action and
   milestones, and remediated in a timely manner; and

4.2 control assessments, both for continuous monitoring and future security certifications,
    include more thorough interviews, examinations, and tests.




                                              Page 10
                                                          OIG FY 2008 FISMA Assessment




Table 1: Examples of Assessments Not Performed on All Applicable Operating Systems.

                                                                                  OIG Determination of Assessment on Applicable Operating
Certification Test Results from Certification Documentation Package
                                                                                  Systems
Procedural Step                            Certification Test Results             Windows
                                           (full quotation)
AC-2.20 Test selected automated                                                   Assessed – We          Not Assessed – The           Not Assessed
mechanisms within the information                                                 determined the         artifacts do not relate to
system that support the account                                                   control was assessed   the procedural step.
management auditing and notification                                              on Windows using
functions to determine if: (i) the                                                the Nessus policy
mechanisms are operating as                                                       scanner.
intended; (ii) each of the account
actions identified produce accurate
and informative audit records; and (iii)
each action, as required by the
account management procedures,
results in notification of appropriate
individuals.
AC-7.2 Examine the information                                                    Assessed – We          Assessed – We                Not Assessed
system configuration settings to                                                  determined the         determined that the
determine if the information system                                               control was assessed   control was assessed
enforces organizational policy and                                                on Windows using       using the results from
procedures for unsuccessful login                                                 the Nessus policy      AC-7.3.
attempts.                                                                         scanner.




                                                                        Page 11
                                                          OIG FY 2008 FISMA Assessment




Table 1: Examples of Assessments Not Performed on All Applicable Operating Systems.

                                                                                  OIG Determination of Assessment on Applicable Operating
Certification Test Results from Certification Documentation Package
                                                                                  Systems
Procedural Step                            Certification Test Results             Windows
                                           (full quotation)
AC-11.3 Test the session lock                                                     Not Assessed           Not Assessed – The            Not Assessed
mechanism by allowing a user                                                                             test result artifact is not
session to remain inactive for the                                                                       applicable because it
organization-defined period to                                                                           only shows
determine if the session lock                                                                            unsuccessful login
automatically occurs on the                                                                              attempts. No other
information system and that the                                                                          artifacts indicate this
session lock remains in effect until the                                                                 control was assessed.
user reestablishes access using
appropriate identification and
authentication procedures.


AU-2.1 Examine organizational                                                     Assessed – The test    Assessed – The test           Not Assessed
records or documents and the                                                      result does not        result does not indicate
information system configuration                                                  indicate that          that              were
settings to determine if the system                                               Windows servers        assessed. However,
generates audit records for the                                                   were assessed;         artifact AU-01
organization-defined auditable events                                             however, we
                                                                                  determined that the    contains configuration
                                                                                  control was assessed   data indicating the
                                                                                  on Windows using       control was assessed.
                                                                                  the Nessus policy
                                                                                  scanner.




                                                                        Page 12
                                                       OIG FY 2008 FISMA Assessment




Table 1: Examples of Assessments Not Performed on All Applicable Operating Systems.

                                                                               OIG Determination of Assessment on Applicable Operating
Certification Test Results from Certification Documentation Package
                                                                               Systems
Procedural Step                         Certification Test Results             Windows
                                        (full quotation)
AU-4.1 Examine the information                                                 Assessed – We            Not Assessed           Not Assessed
system configuration to determine if                                           determined the
the organization allocates sufficient                                          control was assessed
audit record storage capacity and                                              on Windows using
establishes configuration settings to                                          the Nessus policy
prevent such capacity from being                                               scanner.
exceeded.




IA-2.6 Test the appropriate                                                    Assessed – We            Assessed – Supported   Not Assessed
components within the information                                              determined the           by artifact
system to determine if passwords,                                              control was assessed
tokens, or biometrics meet Level 3                                             on Windows using
or 4 requirements consistent with                                              the Nessus
NIST Special Publication 800-63.                                               vulnerability scanner.




                                                                     Page 13
                                                      OIG FY 2008 FISMA Assessment




Table 1: Examples of Assessments Not Performed on All Applicable Operating Systems.

                                                                              OIG Determination of Assessment on Applicable Operating
Certification Test Results from Certification Documentation Package
                                                                              Systems
Procedural Step                        Certification Test Results             Windows
                                       (full quotation)
SC-10.2 Test the network                                                      Not Assessed         Assessed – Supported   Not Assessed
disconnection capability for the                                                                   by artifact
information system by leaving an
open session for a specified amount
of time to determine if the system
terminates the network connection as
expected.




                                                                    Page 14
                                                          OIG FY 2008 FISMA Assessment




Table 2: Assessments that Inappropriately Relied on Documentation and Interviews
                                                                      Certification Test Results
  Control                         Procedural Step                                                          OIG Comments
                                                                            (full quotation)
AC-2          AC-2.3 Examine selected active user accounts to                                      Results do not indicate whether
Account       determine if the organization followed procedures to                                 selected active user accounts
Management establish and activate the user accounts and complete                                   on system components were
              any organization-required documentation.                                             actually examined during
                                                                                                   certification testing.




CM-6            CM-6.2 Examine selected information system                                         Results do not indicate that
Configuration   configuration settings to determine if they are configured                         configuration settings were
Settings        in accordance with the organization-defined settings.                              assessed on any IT products.



CP-9            CP-9.2 Examine selected information system backup                                  Results do not indicate that
Information     media, or selected records of backups if available, to                             backup media or records of
System          determine if the organization backs up the required                                backups were examined. The
Backup          user-level and system-level information (including                                 results are just a description of
                system state information) in accordance with the                                   how the control is implemented
                organization-defined frequency and stores the backup                               from the SSP.
                information in designated locations in accordance with
                information system backup procedures.




                                                                     Page 15
                                                       OIG FY 2008 FISMA Assessment



Table 2: Assessments that Inappropriately Relied on Documentation and Interviews
                                                                      Certification Test Results
  Control                      Procedural Step                                                             OIG Comments
                                                                            (full quotation)




MA-2          MA-2.7 Examine the automated mechanism(s) within                                     Results do not indicate that the
Controlled    the information system to determine if each automated                                automated mechanisms within
Maintenance   function is properly configured to ensure that periodic                              the information system were
              maintenance is scheduled and conducted as required.                                  examined. The results indicate
                                                                                                   that only the Maintenance
                                                                                                   Procedures and Patch
                                                                                                   Procedures documents were
                                                                                                   reviewed.




                                                                  Page 16
                                                         OIG FY 2008 FISMA Assessment




Table 3: Examples of Assessments that Did Not Follow Procedural Steps
Control      Procedural Step                               Certification Test Results   OIG Comments
                                                           (full quotation)
AC-2         AC-2.20 Test selected automated                                            The procedural step to test the auditing and
Account      mechanisms within the information system                                   notification of account management functions
Management that support the account management                                          was not followed. The referenced artifacts do not
             auditing and notification functions to                                     contain audit records or indicate that account
             determine if: (i) the mechanisms are                                       management activity notifications occurred. The
             operating as intended; (ii) each of the                                    artifacts only show that audit log files exist,
             account actions identified produce accurate                                access to a single directory is restricted, and
             and informative audit records; and (iii) each                              unsuccessful login attempts are logged.
             action, as required by the account
             management procedures, results in
             notification of appropriate individuals.
AC-3         AC-3.3 Examine the user access rights on                                   The procedural step of examining user access
Access       the information system to determine if user                                rights against documented user authorizations
Enforcement privileges on the system are consistent with                                was not followed. The referenced artifact does
             the documented user authorizations.                                        not show any comparison of user permissions
                                                                                        with the documented TOC Access Control Policy,
                                                                                        secure configuration baselines, or any other
                                                                                        documented user authorizations. The artifact only
                                                                                        shows that audit log files exist and access to a
                                                                                        single directory is restricted.
AC-5          AC-5.3 Examine selected information                                       The procedural step to examine information
Separation    system accounts to determine if any user                                  system accounts to determine if users have the
of Duties     has access authorizations or privileges that                              ability to perform conflicting security functions
              may allow the user to perform multiple                                    was not followed. The results statement was
              conflicting security functions (e.g.,                                     copied from the SSP and no evidence was
              (i) mission functions and distinct information                            provided showing that account authorizations or
              system support functions should be divided                                privileges were assessed. In addition, an
              among different individuals/roles;                                        interview conducted during certification contained
              (ii) different individuals perform information                            a statement indicating that
              system support functions such as system
              management, systems programming,
              quality assurance/testing, configuration                                                    We do not have an
              management, and network security; and                                     independent test group or implementation group.



                                                                   Page 17
                                                          OIG FY 2008 FISMA Assessment



Table 3: Examples of Assessments that Did Not Follow Procedural Steps
Control      Procedural Step                                Certification Test Results   OIG Comments
                                                            (full quotation)
             (iii) security personnel who administer                                     In our situation the developers test, and the
             access control functions should not                                         developers are the environment owners.”
             administer audit functions).
MA-2         MA-2.8 Examine the log of maintenance                                       The procedural step to examine the log of
Controlled   actions to determine if the log is up to date,                              maintenance actions was not followed. The
Maintenance accurate, complete, and available.                                           results only define the location of the logs. There
                                                                                         is no indication that the logs were examined.



MA-3           MA-3.2 Examine approved information                                       The procedural step to examine maintenance
Maintenance    system maintenance tools and associated                                   tools and associated documentation was not
Tools          documentation to determine if the                                         followed. The results only define the location of
               organization maintains the tools and                                      the maintenance tools and documentation. There
               documentation on an ongoing basis and if                                  is no indication that the tools or documentation
               the processes applied are consistent with                                 were examined.




                                                                                                          

               the documented maintenance procedures.
                                                           




SA-7           SA-7.5 Test network traffic on the                                        The procedural step to perform network packet
User           information system to determine if                                        analysis was not followed. The C&A package did
Installed      prohibited software is installed and                                      not contain any evidence of network packet
Software       operational by utilizing a network packet                                 analysis.




                                                                                                   

               analyzer. (Note: Applications tend to
                                                  





               communicate on known ports and/or have
                                                          





               signature traffic patterns and common
                                                    





               packets.)
                        





SA-7           SA-7.6 Test the information system for                                    The procedural step to detect and report names
User           prohibited software by utilizing a scanner                                of installed software and compare the results
Installed      which detects and reports the names of                                    against approved software applications was not
Software       installed software; compare the results                                   followed. Our evaluation of the scanner results
                                                      





               against the approved software applications                                concluded that the scanners did not detect and
                                                            





                                                                    Page 18
                                                          OIG FY 2008 FISMA Assessment



Table 3: Examples of Assessments that Did Not Follow Procedural Steps
Control      Procedural Step                           Certification Test Results        OIG Comments
                                                       (full quotation)
             list.                                                                       report names of installed software. Also, no
                                                                                         evidence was provided showing that installed
                                                                                         applications were compared against a list of
                                                                                         approved software applications.
SC-14         SC-14.2 Test the publicly available                                        NWS was unable to provide evidence that the
Public        information system by attempting to alter                                  procedural step to attempt to alter protected
Access        protected information using a public                                       information using a public account was followed.
Protections   account to determine if access is limited in




                                                           

              order to preserve the integrity of the




                                                     

              information and the applications.




                                                 

SC-18         SC-18.2 Test the information system by                                     The procedural step to test applicable information
Mobile Code   attempting to run mobile code in an                                        system components by attempting to run mobile
              application where it is specifically prohibited                            code was not followed. The artifact shows
              to determine if the organization implements                                attempts to access the Internet from scanning
              mobile code usage restrictions.                                            machines that are not within the accreditation
                                                                                         boundary. There is also no evidence the
                                                                                         procedure was performed on applicable system
                                                                                         components with Internet access.




                                                                    Page 19
                                                            OIG FY 2008 FISMA Assessment




Table 4: Examples of Results that Do Not Clearly Indicate Why the Assessment Failed.

                                                                                      Expected Result     Actual Results
                         Procedural Step
                                                                                       (full quotation)   (full quotation)
AC-4.1 Examine information system interconnection
agreements to determine if the agreements address:
(i) the types of permissible and impermissible flow of information
between systems; and                                                                                         POA&M
(ii) the required level of authorization to allow information flow as
defined in the information flow enforcement policy and
procedures.
MP-2.7 Test the automated mechanism(s) within the information
system to determine if each automated function is properly
                                                                                                             POA&M
configured to ensure that media access is restricted as required.

SC-12.1 Interview selected organizational personnel with
system and communications protection responsibilities and
examine organizational records or documents (including
developer design documentation) to determine if the information
                                                                                                             POA&M
system employs automated mechanisms with supporting
procedures or manual procedures for cryptographic key
establishment and management and how the mechanisms and
procedures are implemented.
SC-21.2 Test the information system by attempting to launch
known attacks against the domain name servers.                                                               POA&M

SI-7.5 Examine organizational records or documents to
determine if the organization assigns responsibility to specific
parties and defines specific actions to ensure that the software                                             POA&M
and information integrity control is implemented.                                 .




                                                                        Page 20
                                                          OIG FY 2008 FISMA Assessment




Table 5: Comparison of Certification Assessment Results Against OIG Assessment Results
                 Certification Assessment                                                    OIG Assessment
Procedural Step                        Certification Test Results   IT        OIG Assessment Results
                                       (full quotation)             Product
AC-2.4 Examine a list of recently                                             Disabling inactive system accounts is not enforced on one of the
disabled information system                                                   five     components.
accounts and compare to                                                       We identified an administrator account not used in more than a
selected system-generated                                                     year but which was not disabled.
records with user IDs and last                                                Disabling inactive system accounts is not enforced on either
login date for each account to                                                          component.
determine if the last log-in date is                                          We found four system administrator accounts that had never
beyond the date that the account                                              been used or had been inactive for more than 90 days but had
is disabled.                                                                  not been disabled.
                                                                              Disabling inactive system accounts is not enforced on the
                                                                                       database component. We found two accounts that had
                                                                              been inactive for at least 100 days but had not been disabled.
                                                                    Windows   Disabling inactive system accounts is not enforced on three of
                                                                              the four Windows components. We identified six accounts that
                                                                              were inactive for at least 1 year or had never been used but had
                                                                              not been disabled.
AC-2.20 Test selected automated
mechanisms within the
information system that support
the account management auditing                                                                                               .
and notification functions to
determine if:
(i) the mechanisms are operating
as intended; (ii) each of the
account actions identified produce
accurate and informative audit
records; and
(iii) each action, as required by
the account management
procedures, results in notification



                                                                    Page 21
                                                      OIG FY 2008 FISMA Assessment



Table 5: Comparison of Certification Assessment Results Against OIG Assessment Results
               Certification Assessment                                               OIG Assessment
Procedural Step                    Certification Test Results   IT        OIG Assessment Results
                                   (full quotation)             Product
of appropriate individuals.
AC-3.2 Examine access control
mechanisms to determine if the
information system is configured
to implement the organizational
access control policy.




                                                                Windows




AC-7.3 Test the account lockout
policy on selected user accounts
by exceeding the maximum
number of invalid login attempts
within the organization-defined
time period on the information
system to determine if the
information system locks the
account/node.




                                                                Page 22
                                                      OIG FY 2008 FISMA Assessment



Table 5: Comparison of Certification Assessment Results Against OIG Assessment Results
               Certification Assessment                                               OIG Assessment
Procedural Step                    Certification Test Results   IT        OIG Assessment Results
                                   (full quotation)             Product
                                                                                               .




AC-7.8 Examine the information                                  Windows
system configuration settings to
determine if the information
system is configured to
automatically lock the                                                                             .
account/nodes until released by
the administrator when the
maximum number of unsuccessful
attempts is exceeded.
AU-2.2 Test the information                                                                            .
system by attempting to perform
actions that are configured to                                  Windows
generate an audit record.                              t                        .
CM-7.2 Test the information
system to determine if the
identified functions, ports,
protocols, and services are
prohibited or restricted.




                                                                Windows




                                                                Page 23
                                                        OIG FY 2008 FISMA Assessment



Table 5: Comparison of Certification Assessment Results Against OIG Assessment Results
                Certification Assessment                                                OIG Assessment
Procedural Step                      Certification Test Results   IT        OIG Assessment Results
                                     (full quotation)             Product




IA-2.3 Test the information
system to determine if passwords,
tokens, or biometrics meet Level
2, 3, or 4 requirements consistent
with NIST Special Publication
800-63.




                                                                  Windows




                                                                  Page 24
                                                       OIG FY 2008 FISMA Assessment



Table 5: Comparison of Certification Assessment Results Against OIG Assessment Results
               Certification Assessment                                                OIG Assessment
Procedural Step                     Certification Test Results   IT        OIG Assessment Results
                                    (full quotation)             Product




IA-5.3 Examine organizational
records or documents to
determine if the organization
changes default authenticators
upon information system
installation.
IA-5.7 Test the information
system to determine if the system
protects passwords from
unauthorized disclosure and
modification when stored and
transmitted, prohibits passwords
from being displayed when
entered, enforces password
minimum and maximum lifetime
restrictions, and prohibits
password reuse for a specified
number of generations.




                                                                 Page 25
                                                         OIG FY 2008 FISMA Assessment



Table 5: Comparison of Certification Assessment Results Against OIG Assessment Results
                Certification Assessment                                                 OIG Assessment
Procedural Step                       Certification Test Results   IT        OIG Assessment Results
                                      (full quotation)             Product




                                                                   Windows




SI-3.6 Examine malicious code                                      Windows
protection mechanisms to
determine if the mechanisms are:
(i) appropriately updated to
include the latest malicious code
definitions;
(ii) configured to perform periodic
scans of the information system
as well as real-time scans of each
file as it is downloaded, opened,
or executed; and
(iii) configured to disinfect and
quarantine infected files.




                                                                   Page 26
                                OIG FY 2008 FISMA Assessment


Appendix A: Objectives, Scope, and Methodology

To meet the FY 2008 FISMA reporting requirements, we evaluated the NOAA certification
and accreditation for the National Weather Service Telecommunication Gateway
(NOAA8871).
Security certification and accreditation packages contain three elements, which form the basis
of an authorizing official’s decision to accredit a system.

    •   The system security plan describes the system, the requirements for security
        controls, and the details of how the requirements are being met. The security plan
        provides a basis for assessing security controls and also includes other documents
        such as the system risk assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment
        and recommendations for correcting control deficiencies or mitigating identified
        vulnerabilities. This report is prepared by the certification agent.
    •   The plan of action & milestones is based on the results of the security assessment.
        It documents actions taken or planned to address remaining vulnerabilities in the
        system.

Commerce’s IT Security Program Policy and Minimum Implementation Standards requires
that C&A packages contain a certification documentation package of supporting evidence of
the adequacy of the security assessment. Two important components of this documentation
are:

    •   The certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements.
    •   The certification test results, which is the raw data collected during the
        assessment.

To evaluate the C&A package, we reviewed all components of the package and interviewed
NWS staff to clarify any apparent omissions or discrepancies in the documentation and gain
further insight on the extent of the security assessment. We give substantial weight to the
evidence that supports the rigor of the security assessment when reporting our findings to
OMB.

In addition, we performed our own security control assessments on NWSTG and compared
our results with NWS’ certification test results. We chose a subset of the control requirements
specified in NIST SP 800-53, and a subset of assessment procedures from NIST SP 800-
53A, Third Public Draft. We tailored the procedures to NWS’ specific control implementations.
We did not attempt to perform a complete assessment of each control; instead we chose to
focus on specific aspects of some of the more important technical and operational controls.

We assessed controls on key classes of IT components and applications, choosing a targeted
set of components from each class that would allow for direct comparison with NWS’
certification test results. We assessed control implementations on:             components,
Windows                                                      ,
                 (router/switch/firewall combos),                          , and a
                   . In addition, we examined the security plan descriptions, including related
policy documents, and interviewed appropriate NWS personnel.

Because NWSTG                             security objective, we adapted our assessments to
minimize the impact on system operations by assessing standby components when possible.
We could not perform some assessments on certain system components. For example, we
did not assess the creation, modification, or deletion of user accounts on routers, firewalls,

                                           Page 27
                                OIG FY 2008 FISMA Assessment


and switches. Our assessments included the following activities:

    •	   Extraction, examination, and verification of system configurations
    •	   Generation of system events and examination of system logs
    •	   Execution of DISA scripts (Gold Disk)
    •	   Examination of user and group authorizations
    •	   Addition, modification, and deletion of operating system accounts

Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification             system would require. However, our
assessments gave us direct assurance of the status of select aspects of important controls in
NWSTG and provided meaningful comparison to the NWS security certification.

We used the following review criteria:
   •	 Federal Information Security Management Act of 2002 (FISMA)
   •	 U.S. Department of Commerce, IT Security Program Policy and Minimum 

      Implementation Standards

   •	 NIST’s Federal Information Processing Standards (FIPS)
           o	 Publication 199, Standards for Security Categorization of Federal Information
                and Information Systems
           o	 Publication 200, Minimum Security Requirements for Federal Information and
                Information Systems
   •	 NIST Special Publications:
           o	 800-18, Guide for Developing Security Plans for Information Technology
                Systems
           o	 800-37, Guide for the Security Certification and Accreditation of Federal
                Information Systems
           o	 800-42, Guideline on Network Security Testing
           o	 800-53, Recommended Security Controls for Federal Information Systems
           o	 800-70, Security Configuration Checklists Program for IT Products

We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency in January 2005.




                                            Page 28
                                      UNITED STATES DEPARTMENT OF COMMERCE
                                      National Oceanic and Atmospheric Admlnlstra~lon
                                      CHIEF AOr...IINISTRATIVE OFFICER




      9      ?

MEMORANDUM FOR:	            Judith J. Gordon
                            Assistant Inspec~ General for Audit and Evaluation

FROM:	                          ~~~
                             illiam F. Broglie
                            Chief Administrative Of er

SUBJECT:	                   FY 2008 FISMA Assessment ofNWS Telecommunication
                            Gateway (NOAA8871)
                            Draft Inspection Report No. OSE-19000/June 2008


Attached is the National Oceanic and Atmospheric Administration's response to the
Office of Inspector General's draft report on its Federal Information Security
Management Act review of the National Weather Service Telecommunication Gateway
system. The response was prepared in accordance with Department Administrative
Order 213-3, Inspector General Auditing. We appreciate the opportunity to respond to
your draft report.

Attachment
                                Department of Commerce

                     National Oceanic and Atmospheric Administration

                        Comments on the Draft OIG Report Entitled 

                  “FY 2008 FISMA Assessment of National Weather Service 

                        Telecommunication Gateway (NOAA8871)” 

                                  (OSE-19000/June 2008) 



General Comments

The National Oceanic and Atmospheric Administration (NOAA) appreciates the opportunity to
review the draft Office of Inspector General (OIG) report on the National Weather Service
(NWS) Telecommunication Gateway (NWSTG). Although corrective actions were underway
for many of the recommendations and findings in this report, NWS does not dispute those
corrective actions were not yet complete when the OIG assessment took place.

Currently, the contractor that conducted the NWSTG certification testing is in the process of
redoing that certification testing at no charge to NWS, and is expected to complete re-
accreditation of the system by August 29, 2008. NWS has incorporated lessons learned from this
OIG assessment in current and future Certification and Accreditation (C&A) activities for high
impact systems.

Several corrective actions were underway when the OIG reviewed this system, including the
following:
•	 Key personnel actions have been completed and others are underway to strengthen the
   computer security protections for this system and other systems across NWS;
•	 Organizational changes have been made and others are underway to provide better subject
   matter expertise in the oversight of the NWS C&A program (to include creation of a GS-15
   Chief Information Security Officer position within the NWS Office of the Chief Information
   Officer to oversee all NWS C&A activities);
•	 Computer security program criteria will be added to the annual performance metrics for
   Regional Directors and other appropriate personnel; and
•	 An NWS-wide Information Management Council was established to coordinate C&A
   processes and knowledge across NWS.

Implementation of additional corrective actions is dependent upon the results of the new NWSTG
certification testing.

Recommended Changes for Factual/Technical Information

Page 4, first bullet:
The OIG correctly notes the NWSTG System Security Plan (SSP) was not signed when the
certification testing began. However, the NWS Information Technology Security Officer (ITSO)
and the Authorizing Official favorably reviewed the SSP before testing commenced.


                                                  1

NOAA Response to OIG Recommendations

Recommendation 1: “1.1 NOAA should ensure that the authorizing official and senior
information security officer review and approve the system security plan prior to certification.
The system information should be accurate and proposed security controls should meet the
system’s security requirements. Approval should confirm that the SSP
    • correctly identifies security controls not directly supervised by the system owner,
    • adequately describes all applicable required control enhancements, and
    • specifies all security control parameters required to be defined by the organization.”

NOAA Response: We concur. NWS is hiring a new System Owner, Information System
Security Officer (ISSO), and NWS ITSO and is including as part of the selection process the
candidates’ understanding of C&A requirements. As an immediate action, NWS has temporarily
assigned a highly-qualified System Owner from another NWS component to oversee the
technical corrective actions to address the OIG findings.

NWS is processing an organizational change that will replace the current position of “NWS
ITSO” with a new position of NWS Chief Information Security Officer (CISO) at the GS-15
level. Under this organizational change, the new ISSO for NWSTG will report and be
accountable to the new NWS CISO.

Information security compliance has been added to the performance appraisal requirements of all
NWS senior executives, system owners, and information technology (IT) managers. Information
security compliance includes the need to infuse system security into the organizational culture at
all levels and to address security needs in budget and resource requirements supporting day-to-
day operations.

The SSP is being updated to define all security control enhancements and parameters required
for high-impact systems. (Plan of Action and Milestones (POA&M) item: NOAA8871-08.01,
Security control enhancement and parameter definition; scheduled completion date 9/30/09)

The SSP will also be updated to match current NOAA common controls. (POA&M item:
NOAA8871-08.02, NOAA common control review and update; scheduled completion date
9/30/09)

Recommendation 2: “NOAA should ensure that

2.1 secure configuration settings are defined and implemented for all IT products in the system
accreditation boundary in accordance with NIST SP 800-70, Security Configuration Checklists
Program for IT Products; and

2.2 a sample of identically configured components running each operating system variant is
assessed for compliance with organizationally defined operating system baselines and
appropriate samples of other IT products.”




                                                 2

NOAA Response: We concur. Through security awareness training and system owner training,
NWS will provide system owners and technical staff with greater understanding of threats,
vulnerabilities, countermeasures, and C&A compliance strategies and details.

NWS is also developing a strategy to facilitate investment decisions to support the needs of
system owners to understand and drive compliance with the confidentiality, availability, and
integrity requirements of their systems.

Similarly, contracts and task orders for C&A must include detailed descriptions of the expected
deliverables for potential vendors.

At a technical level, NWS secure configuration baselines are being defined and implemented for
configurable off-the-shelf software, operating systems, and network devices. (POA&M item:
NOAA8871-08.03, scheduled completion date 9/30/09)

As part of the current redo of the certification testing, reassessment of all applied secure
configuration baselines is being performed and relevant documentation will be updated to correct
the deficiencies from the OIG findings, including maintaining appropriate artifacts, where
applicable.

Recommendation 3: “NOAA should ensure that

3.1 security controls are assessed on all applicable system components, such as routers, switches,
firewalls, applications, and servers;

3.2 control assessments follow applicable procedures; and

3.3 assessment results clearly describe vulnerabilities discovered.”

NOAA Response: We concur. NWS is examining resource requirements to provide a
comprehensive monitoring capability with technical staff and tools that will provide continuous
security monitoring of NWS networks, devices, boundaries, and NOAA common controls.

At a technical level, as part of the redo of the certification testing, re-evaluation and correction of
procedural steps relating to NOAA common controls are being performed, as is a reassessment
of all controls on all applicable system components and software pertaining to a high availability
system. Relevant documentation will be updated after the certification testing is completed.

Recommendation 4: “NOAA should ensure that

4.1 the deficiencies we identified are added promptly to the system’s plan of action and
milestones, and remediated in a timely manner; and

4.2 control assessments, both for continuous monitoring and future security certifications,
include more thorough interviews, examinations, and tests.”



                                                   3

NOAA Response: We concur. At a technical level, NWS is addressing the following:

•	 Account management policy, procedure, and implementation are being reviewed and
   modified as necessary. (POA&M item: NOAA8871-08.04, scheduled completion date
   9/30/09)
•	 Audit implementation is being reviewed on all systems and modified as necessary.
   (POA&M item: NOAA8871-08.04, scheduled completion date 9/30/09)
•	 Configuration management, including system integrity controls, is being implemented or
   modified as necessary. (POA&M item NOAA8871-07, scheduled completion date 9/1/08)
•	 The vendor default password found on a                                      appliance is not
   externally accessible due to network protection, but was changed immediately after the initial
   OIG briefing. Password management settings are currently being reviewed. (POA&M item:
   NOAA8871-07.02, scheduled completion date 9/1/08)
•	 Identification and baseline configuration of the anti-virus application is currently underway.
   (POA&M item: NOAA8871-07.02, scheduled completion date 9/1/08)




                                                4

                                 OIG FY 2008 FISMA Assessment



Appendix C: Assessment of Selected Security Controls
A compact disk containing the procedures we used to assess security controls implemented on
selected system components from the Telecommunication Gateway system was provided to NWS.
The disk also included our assessment results, analysis, and supporting evidence.




                                           Page 29
